                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: M99040021
                                                                                  11          Page 1 of 3



           In April 1999, our office received an allegation from a complainant' who alleged that there were
           several problems with a proposal2 submitted to the agency for funding of work at a university-
           sponsored research center3. The complainant alleges the following:

               The proposal contains extensive text that was plagiarized
               The CV's of listed collaborators4appeared as though they had been fabricated
               Claims of ongoing research, in the proposal, were false and were not the work of the PI5
               (subject 1) or CO-PI~ (subject 2)
               A figure in the proposal was not representative of the research facility7where some of the
               research was supposed to be performed and was taken from a document produced by the
               Environmental Protection Agency without proper reference


           We initiated our inquiry into the allegations. We determined that there was sufficient evidence to
           warrant further investigation. We also learned that the university had been informed of the
           charges and was in the process of conducting an inquiry. We, therefore, deferred any further
           actions until the university completed its inquiry. The university completed its report and
           forwarded it to our office.

           We reviewed the university's report and found that it did not effectively address several of the
           allegations brought to our office. We wrote back to the university and requested they address
           several questions that we believed were crucial to assessing this case. The university reconvened
           its inquiry committee to address our questions, completed a second report and forwarded it to our
           office.

           We reviewed the university's reports, along with written materials provided to us by the subjects




1                             Agent                  Attorney               Supervisor                 AIGI

11     Sign i date   I
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: M99040021                                                                    Page 2 of 3



         another person. However, we found the same text .within a research proposal submitted to the
         Army Research Office (ARO) in 1991. Subject 1 was the PI on that proposal. We determined
         that much of the text from this 1991 proposal was strikingly similar to the text of the proposal
         central to the allegations. This included the section about ongoing research at the center, which
         clearly had not been updated from the content in the 1991 proposal.

         Concerning the fabricated CVs of research collaborators, we determined that subject 1 had
         constructed the CVs from information off a public website. The subjects had met with both
         collaborators several months earlier to discuss a general desire to perform collaborative research.
         However, at the time the proposal was finalized, the collaborators were not available to review
         the proposal. Subject 1 then constructed the CVs believing that the collaborators had expressed a
         desire to participate in the proposed research. Neither the collaborators nor their university
         reviewed the final proposal. However, the collaborators did state later that they did not believe
         their professional reputations had been violated by the subjects.

         Finally, we determined that the figure describing the research facility bore a striking resemblance
         to a figure from an EPA document. Subject 1 did provide evidence that the same figure was
         located within a paper submitted to her during an undergraduate class project. Subject 1 claimed
         this was the source of the figure and that she was unaware of the existence of the EPA document.

         The university's inquiry committee determined that the subjects' actions were the result of
         "carelessness" and "not attending sufficiently to details". They did not believe the evidence
         supported a charge of misconduct in science. However, they did recommend that the provost
         caution the subjects, in writing, to "carefully draft, review and accurately and precisely describe
         necessary elements" in future proposals. The university Provost chose to take more stringent
         actions by placing a letter of reprimand into the subjects' personnel files because he said their
         actions "at a minimum" were "careless and unprofessional". He also determined that the subjects
         should be prevented from submitting research proposals to outside agencies for a period of one
         year.

         NSF does require all principal investigators to maintain the highest ethical standards when
         developing and submitting a proposal to NSF. We agree that the subjects, particularly subject 1,
         did not employ the highest levels of scholarly standards in composing this proposal. However,
         because subject 1 was a PI on the 1991 ARO proposal, which she used as the source document,
         we believe that she has scholarly rights to the text in question and therefore her use of the text is
         not plagiarism. In copying the ongoing research section of the 1999 proposal straight out of the
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM




1991 ARO proposal, the subjects displayed extreme carelessness and disregard for submitting
accurate information to NSF. Regarding the figure which misrepresents the research facility, it is
difficult to state with absolute certainty that subject 1 was unaware of the EPA document which
contained this figure. Again, we believe subject 1 showed, at a minimum, carelessness by
including this figure in the proposal as representing a schematic of the facility without stating
that the purpose of the figure was to provide only a basic understanding of how the facility
worked and that it was not a schematic of the actual facility. Finally, it is our belief that the
unauthorized use of CVs is not an accepted practice within the scientific community. However,
we believe the subjects' actions were mitigated by the collaborators stating they did not feel that
the subjects' actions violated their professional reputations.

In our view, the subjects' actions in this case, although inappropriate and extremely careless, do
not individually or collectively rise to the level of misconduct in science. Therefore, we will not
recommend additional actions be taken by NSF management in this case. We believe our
decision is consistent with the findings of the university committee and with the actions taken by


       Accordingly, this case is closed.
